No. 20-1540
IN THE SUPREME COURT OF THE
UNITED STATES

VICTOR J. EDNEY JR. - PETITIONER
versus
EONDRA LAMONE, OFFICER JORDAN WENKMAN; OFFICER BOBBY KING;
SERGEANT DAVID CONLEY; SERGEANT KEITH VAUGHAN - RESPONDENT

“PETITION FOR REHEARING”

CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the petition for
rehearing complies with the word limitations and contains 2847 words, excluding
the parts of the petition that are exempted by the Supreme Court Rule 33.1(d)
which are: questions presented, list of parties, table of contents and the tabled of
cited authorities of the petition etc.

I declare under penalty of perjury that the petition for rehearing is presented in
good faith and not for delay. Its’ grounds are limited to intervening circumstances of
substantial effect not previously presented in the lower courts which is a proper
motion of frivolous claims that asserts constitutional violations to ensure the federal
question jurisdiction burden has been meet to be judge for the unethical behavior of
the respondents.
Executed on the Twenty-Third of July 2021.
PRO SE: VICTOR J. EDNEY JR.
424 Clay Ave. # 853
WACO TEXAS, 76703
(254) 424 - 6378

